HHS/OIG-Audit--"Review of Health and Safety Standards at Child Care
Facilities in Nevada, (A-09-92-00103)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Health and Safety Standards at Child Care Facilities in Nevada," (A-09-92-00103)
September 29, 1993
Complete
Text of Report is available in PDF format (1.74 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our Review of Health and Safety
Standards at Child Care Facilities in Nevada. The Office of Inspector General
performed this review as part of a broader effort to assess risk to our Nation's
children in child care facilities. We have initiated a series of reviews to
assess whether providers of child care services are in compliance with appropriate
Federal, State or local authorities' and health and safety laws and regulations.
Additionally, we assessed the State's monitoring and oversight of compliance
with applicable health and safety laws and regulations. This review disclosed
that additional attention is needed in the State of Nevada to improve the health
and safety conditions as well as the recordkeeping at the facilities.